<html>
<title> - TERRORISM: FIRST RESPONDERS</title>
<body><pre>[Senate Hearing 108-344]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-344
 
                      TERRORISM: FIRST RESPONDERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 3, 2003

                               __________

                          Serial No. J-108-35

                               __________

         Printed for the use of the Committee on the Judiciary


                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
92-257 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
MIKE DeWINE, Ohio                    JOSEPH R. BIDEN, Jr., Delaware
JEFF SESSIONS, Alabama               HERBERT KOHL, Wisconsin
SAXBY CHAMBLISS, Georgia             JOHN EDWARDS, North Carolina
                Stephen Higgins, Majority Chief Counsel
                David Hantman, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................    11
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    28
    prepared statement...........................................    40
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
    prepared statement...........................................    42
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    44
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    31

                               WITNESSES

Clarke, Richard A., Senior Advisor, Independent Task Force on 
  Emergency Responders...........................................    15
Cox, Hon. Chris, a Representative in Congress from the State of 
  California.....................................................     5
Posner, Paul L., Managing Director, Federal Budget Issues and 
  Intergovernment Relations, Strategic Issues, General Accounting 
  Office.........................................................    17
Rudman, Hon. Warren, Chair, Independent Task Force on Emergency 
  Responders.....................................................    12
Turner, Hon. Jim, a Representative in Congress from the State of 
  Texas..........................................................     8

                       SUBMISSIONS FOR THE RECORD

Clarke, Richard A., Senior Advisor, Independent Task Force on 
  Emergency Responders, prepared statement.......................    36
Posner, Paul L., Managing Director, Federal Budget Issues and 
  Intergovernmental Relations, Strategic Issues, General 
  Accounting Office, prepared statement..........................    47
Turner, Hon. Jim, a Representative in Congress from the State of 
  Texas, prepared statement......................................    71


                      TERRORISM: FIRST RESPONDERS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 3, 2003

                              United States Senate,
Subcommittee on Terrorism, Technology and Homeland Security
                                Committee on the Judiciary,
                                           Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:19 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl, Feinstein, Leahy, Biden, Feingold, 
and Schumer.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Good afternoon. The Subcommittee on Terrorism 
and Technology will come to order. One of our first panelists 
is not here, but I think in view of time we are going to begin 
and I will begin with my opening statement.
    Let me say preliminarily that this Committee has been 
blessed with cooperation of experts in the past, but today we 
have really the most expert panel that we could have on the 
subject before us, the subject of first responders. I just want 
to thank all of our witnesses today for their willingness to be 
here and to edify the Committee on this most important topic.
    Let me begin with my statement. Senator Feinstein is in the 
ante room and she will be here very shortly to give her 
statement and then we will call upon our first panel.
    Of course, we know that first responders are the police and 
the firefighters and the emergency medical technicians. Our 
first witness, Chris Cox, Representative Cox, has said that 
first responders are the backbone of our communities. We post 
their names and numbers on our refrigerators because we rely 
upon them to help us in an emergency. They are our heroes in 
times of crisis. Indeed, during the September 11 attacks, the 
police and the firefighters led evacuations from the World 
Trade Center, helping an estimated 15,000 people escape safely.
    So, today, our Subcommittee will examine the report of the 
Independent Task Force on Emergency Responders, sponsored by 
the Council on Foreign Relations. We will hear from these noted 
experts, as I have said.
    On the first panel, we will hear from the Chairman and 
Ranking Member of the House Select Committee on Homeland 
Security, Representative Chris Cox, and Jim Turner, the ranking 
Democrat on the Committee. Chairman Cox has a proposal titled 
``Faster and Smarter Funding for First Responders,'' which is 
based on the following principles.
    Threat analysis: Federal grants should be distributed based 
on an authoritative assessment of where the risk is greatest. 
Rapid funding: Funding should get to its intended first 
responders as quickly as possible. Regional cooperation: 
Funding priorities should reward communities that successfully 
develop interoperability plans and work across jurisdiction 
lines.
    On the second panel, we will hear from, as I say, three of 
the most expert people we could call upon here. First, Senator 
Warren Rudman, the Chairman of the Independent Task Force on 
Emergency Responders; Dick Clarke, the Senior Advisor to the 
Council on Foreign Relations.
    At the outset of its report, by the way, the Council makes 
the point, and I am quoting now, ``The United States must 
assume that terrorists will strike again, and the United States 
remains dangerously ill prepared to handle a catastrophic 
attack on American soil''--a pretty serious statement.
    According to the report, there are two major obstacles 
hampering America's emergency preparedness efforts: lack of 
preparedness standards and stalled funding for emergency 
responders. One of the Council's recommendations to deal with 
the problem of stalled distribution is that the system for 
allocating scarce resources should be based less on equally 
dividing the spoils and more on addressing identified threats 
and vulnerabilities.
    According to the report, and I am again quoting, ``To do 
this, the Federal Government should consider such factors as 
population, population density, vulnerability assessment, and 
presence of critical infrastructure within each State.'' I 
agree with that and look forward to hearing the witnesses 
discuss that.
    Finally, the Subcommittee will hear from Dr. Paul Posner, 
of the General Accounting Office. At the beginning of his 
written testimony, Dr. Posner makes a similar point and he 
writes, again quoting, ``Given the many needs and high stakes 
involved, it is all the more important that the structure and 
design of Federal grants be geared to fund the highest-priority 
projects with the greatest potential impact for improving 
homeland security.''
    It seems that, as Chairman Cox has said elsewhere, the 
pipeline is a big part of the problem. Indeed, in its report 
the Council says, again quoting, ``In some respects, there is 
no natural limit to what the United States could spend on 
emergency preparedness. The United States could spend the 
entire gross domestic product and still be unprepared, or 
wisely spend a limited amount and end up sufficiently 
prepared.''
    If it does the former, I submit that it just throws money 
at the problem and then the result will be, as the Council 
observed, ``The United States will have created an illusion of 
preparedness based on boutique funding initiatives without 
being systematically prepared. The American people will feel 
safer because they observe a lot of activity, not be safer 
because the United States has addressed its vulnerabilities''--
I think a wise conclusion. I agree, therefore, that the 
Government needs to spend its money more wisely.
    One example of this, a potential wise use of resources, is 
a proposal called Project Zebra. Project Zebra is a medically-
based bioattack detention and warning system which could detect 
and monitor infections from biological attacks and quickly 
communicate the results across the country.
    Rather than attempting, at great and maybe even prohibitive 
cost, to set up sensors across the Nation--many believe that 
that would be infeasible--Project Zebra would quickly determine 
whether symptoms of patients presenting themselves to emergency 
rooms were the result of normal diseases or from biological 
agents.
    As for the pipeline and the formulas, there is an 
experience in Arizona that I just thought I would share with 
you that illustrates at least part of the problem.
    Recently, the Department of Homeland Security classified 
Pima County, Arizona's population level the same as Maricopa 
County's. They are quite different. As a result, Pima County is 
scheduled to receive an additional $1.3 million beyond its 
allowed formula grant.
    Well, Pima County is located on the border with Mexico and 
it has very urgent first responder and border enforcement 
needs. So the county has dedicated, but not yet spent, this 
windfall of first responder funds. The county officials are 
hopeful they will be able to keep those inadvertently promised 
funds from DHS.
    My point here is obviously that was simply a mistake. What 
we need to do is focus where the targeted needs are and where 
the highest risk is and direct our funding most there. Of 
course, I would contend that border counties fall within that 
category of high risk, by definition, and should receive a 
significant part of first responder spending, and not by 
accident.
    In any event, in closing I again thank the witnesses for 
being here. I would like to thank Senator Feinstein, as usual. 
The basic idea for conducting this hearing at this time came 
from Senator Feinstein, and on this issue and every other in 
this Subcommittee she has been enormously helpful and very 
constructive to work with.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, and I 
think you know that I find it a privilege and a delight to work 
with you, and I thank you very much for calendaring this 
hearing.
    I also want to welcome the two specialists--I am sure there 
are others in the House--Congressmen Cox and Turner. We look 
forward to your comments on homeland security. And, of course, 
Warren Rudman, who I think has appeared before this 
Subcommittee now three times.
    Chairman Kyl. At least three times.
    Senator Feinstein. At least that, and is greatly respected. 
Also, Dick Clarke and Paul Posner, as well.
    Now, I would like to take a little different tack in my 
opening comments because of something you said, Senator, that 
there are targeted needs and the money needs to be directed 
toward these targeted needs. So the first point I want to make 
is that the formula under which these monies are distributed 
really fails to do that. Wisconsin, for example, gets about $35 
per person. California gets $5 per person. The GAO has looked 
at this and found that the formula really doesn't see that 
money goes where the needs are.
    The second point I would like to make is that the Council 
on Foreign Relations Task Force report entitled ``Drastically 
Underfunded, Dangerously Unprepared,'' is the first systematic 
attempt to estimate national homeland security needs. It 
determined that first responders have unbudgeted needs that 
total about $100 billion. Others agree with that, and I just 
want to mention a few other findings that are borne out to 
support what the task force has done.
    In March of 2003, the Conference of Mayors said that cities 
are spending an additional $70 million per week on personnel 
costs alone just to keep up with security requirements.
    FEMA conducted a study and reports that only one-fourth of 
all fire departments can communicate with other first responder 
safety employees--only a quarter, and that is because of the 
inoperability of communications equipment, which we have tried 
to do something about in the supplemental appropriations bill. 
So that is a huge problem because you have an episode and 
everybody reports to a site and nobody can talk with one 
another. Only one-fourth of fire departments can communicate.
    According to the Coast Guard, our ports need $1.1 billion 
for seaport security this year and $5.4 billion during the next 
10 years. In spite of this, as we all know, the President did 
not request any money for port security grants or any form of 
assistance to our ports in fiscal year 2003 and 2004.
    The American Public Transportation Association testified 
earlier this year that we need $6 billion in transit security, 
primarily in the areas of communications, surveillance, 
detection systems, personnel, and training. GAO recently 
reported, and I quote, ``Insufficient funding is the most 
significant challenge in making transit systems safe and 
secure.'' In eight of the ten transit agencies surveyed, GAO 
found that $700 million was needed just in those eight to 
improve security.
    Using EPA data, the GAO found that 123 chemical facilities 
across the country, if attacked, could inflict serious damage 
and expose millions of people to toxic chemicals and gases. 
There are 3,000 chemical facilities in 49 States that, if 
attacked, could affect more than 10,000 people each. The 
Congressional Budget Office estimated that it will cost $80 
million just to conduct vulnerability assessments associated 
with these chemical plants.
    So I think there is really little question that we need to 
do more. I know, as you said, some of the money hasn't been 
spent, but the point that I am trying to make, and what I hear 
from police and fire and mayors and county supervisors 
everywhere is that we don't have the money to do what the 
Federal Government wants us to do. So I look forward to the 
testimony.
    Chairman Kyl. Thank you, Senator Feinstein.
    Now, our first panel, and if I could ask both 
Representative Cox and Representative Turner to have a seat. 
They are well known to all of us. Congressman Christopher Cox 
is serving his eighth term in the United States House of 
Representatives representing the 48th Congressional District of 
California. He is Chairman of the House Select Committee on 
Homeland Security. He is also Chairman of the House Policy 
Committee. I referred earlier to the very important legislation 
which he has introduced and hope that he will refer to.
    Representative Jim Turner is serving his fourth term in 
Congress representing the 2nd Congressional District of Texas. 
He is the Ranking Member of the House Select Committee on 
Homeland Security, also a member of the House Armed Services 
Committee, where he has served as the Ranking Member of the 
Terrorism Subcommittee.
    Gentlemen, I welcome you both.
    Representative Cox.

STATEMENT OF HON. CHRIS COX, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Representative Cox. Thank you very much, Mr. Chairman and 
Senator Feinstein. We are, my Ranking Member and I, very 
pleased to be here with Warren Rudman, Dick Clarke, and Jamie 
Metzl because we, as you, are relying upon the very same 
experts. This study leads to certain predictable destinations 
and I think that the advice that you will receive on the next 
panel will be well worth listening to.
    We are here approximately on the 2-year anniversary of the 
September 11 attacks which, when they occurred, drew immediate 
attention to the urgent role of first responders--the police, 
the firefighters, the emergency medical teams--who are always 
the first on any crisis scene.
    After that, the Nation's attention has also focused on the 
deficiencies in information-sharing within our Government, 
within the Federal Government, between and among FBI, CIA, and 
the other intelligence agencies, and also between Washington 
and State and local government.
    Together, these two crucial elements--first responders and 
intelligence of homeland security--are inextricably linked 
because information about an attack that reaches the front 
lines of local authorities in real time could potentially 
reduce its impact, if not stop it entirely.
    In the 2 years since September 11, the focus on first 
responders has generated a growing awareness that Federal money 
isn't reaching the first responders where it is needed. Our 
House Committee on Homeland Security has held hearings here in 
Washington and in the field, and the answers have come back 
routinely and predictably. Even though Congress has 
appropriated $14 billion in first responder monies since 
September 11, time and time again the people whom you would 
expect to have that money at the local level do not have it.
    While much of the discussion has focused on calls for ever 
higher levels of spending, Mr. Chairman, as you pointed out, an 
even greater problem--and, Senator Feinstein, you in your 
opening statement pointed out this same problem--is that 
information gathered by counterterrorism experts, at 
significant taxpayer expense it is worthwhile to add, is 
ignored in the disbursement process.
    The present grant system for first responders is similar to 
the one that the Federal Government uses for paving roads and 
responding to mudslides. Political formulas based on parity and 
population rather than intelligence on terrorist plans and 
intentions determines where the billions go. Such an archaic 
approach to the challenges posed by international terrorism is 
courting disaster.
    In Washington, once it became clear that important first 
responder needs were going begging, the usual political blame 
game ensued. The politically expedient course, of course, was 
to demand that the Department of Homeland Security use the 
dozens of existing formulas, the ones that it inherited from 
the 22 agencies that were folded into DHS, so that the money 
could go quickly.
    But these were complicated and eccentric formulas. They 
were complicated and eccentric because they were built by the 
political class to meet political needs. Thus, the grant 
formula for fighting fires now serves double duty for homeland 
security. But this and other such formulas have nothing to do 
with objective measurements of the relative risks of terrorism 
attack.
    Inserting intelligence into the equation for our emergency 
responders is an area where Congress--the Senate and the House, 
this Subcommittee, our Select Committee--can and should exert 
its influence. If Americans are to be protected against the 
next terrorist attack, local police, firefighters, and 
emergency medical personnel must be prepared as never before. 
They must have the equipment and the training to respond to a 
variety of new threats, in addition to the more traditional 
emergencies.
    All sides are agreed that this takes money, and Congress 
has thus far responded. Since that terrible day in September 2 
years ago, as I mentioned, Congress has appropriated over $14 
billion for first responders alone. That is an increase of over 
1,000 percent. Even for Washington, this is an incredible 
amount of money.
    But the fact that such large sums are involved only 
accentuates the importance of spending this money wisely. It is 
a truism that if you send the money to the wrong place, then 
the important needs are underfunded no matter how much you 
spend. That means all funds should be disbursed on the basis of 
hard-nosed threat assessment.
    Currently, Federal funding for first responders is parceled 
out among the States with a guaranteed minimum for every State, 
presumably because every State has two Senators. One obvious 
distortion is that California receives less than $5 per person 
in first responder grants, as Senator Feinstein has just 
pointed out, whereas, for example, Wyoming receives over $35. 
The same result obtains in other large States, including New 
York.
    Equally unjustifiable, however, is that with rare exception 
the remainder of the funds are allocated only according to the 
population. While larger concentrations of population may 
indeed be terror targets, this is a very unsophisticated 
approach to what should be an intelligence-driven process.
    Small-population farm States such as Iowa and Nebraska can 
legitimately claim attention because of their responsibilities 
for the Nation's food supply. Regions such as Alaska and 
Wyoming that have few people are thick with defense assets, 
energy, and other productive infrastructure. Sorting out these 
competing claims must be achieved through rigorous threat 
assessments, not political tradeoffs.
    Just as rickety as the funding formulas and just as much in 
need of reform is the grant application process for first 
responder monies. Currently, applicants are forced to follow a 
convoluted 12-step process in order to receive a portion of the 
money that Congress has already made available to them.
    Localities wait months to be reimbursed for funds they have 
already been forced to spend by Federal mandate. This outdated 
grant system results in delays and funding distortions that do 
nothing but exacerbate the risks we face.
    Expending extravagant amounts to purchase items we don't 
need in places that don't need them is not homeland security. 
It does not protect those who are most at risk. To determine 
how to prioritize our first responder grant assistance, sound 
threat assessment must be the basis for Federal grants.
    Here is how it could work. States, as well as multi-state 
and interstate regions, would determine their vulnerabilities 
on an ongoing basis. Simultaneously, the Federal Government 
would complete and constantly update its national vulnerability 
assessment. States and regions that develop their own homeland 
security first responder plans would be able to apply directly 
to the Department of Homeland Security to meet their specific 
regional needs.
    The Department would match the State and local 
vulnerability assessments against all the Federal Government 
knows about our terrorist enemies and our National 
vulnerabilities. Federal first responder grant assistance would 
flow to where the risk is greatest.
    With the Homeland Security Act, Congress and President Bush 
took prompt and definitive action to break down legal and 
cultural barriers to information-sharing. Now, the FBI, the 
CIA, and dozens of other Federal, State and local intelligence 
and law enforcement agencies are sharing data on terrorists and 
their plans. This is a good start.
    The grant-making process for our first responders deserves 
equally decisive action. And let's be clear: our enemies have 
no political two-stepping process to perform. There is no 
confusion on their end. They are focused on one objective only, 
to inflict fear and panic on our citizens, kill our loved ones, 
and destroy our economy and our way of life.
    This is no overstatement. There is no need for drama. We 
can and we must start to make sense of the way we fund our 
first responders, the men and women upon whom we all may 1 day 
rely for our lives if we are to prevail in the war on terror.
    Congressman Turner and I are committed to doing this in the 
House. We know you are committed to doing this as best we can 
in the Senate, and we look forward to working with you in this 
process.
    Thank you very much for the opportunity to testify.
    Chairman Kyl. Thank you, Chairman Cox. I think some more 
sophisticated observers might find it a little odd that a 
Senate Subcommittee would actually be calling upon our 
colleagues in the House for their best judgment on things, and 
I hope this reflects, first of all, our willingness to 
acknowledge that there is a lot of wisdom on the other side of 
the Capitol, and, secondly, that we are all in this together. 
We have a lot to learn, I know, from our colleagues in the 
House of Representatives, and so we are very happy to have you 
here.
    Representative Turner.

STATEMENT OF HON. JIM TURNER, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Representative Turner. Mr. Chairman, Senator Feinstein, 
thank you. It is always an honor for those of us in the lower 
House to be invited to the upper chamber.
    Senator Feinstein. It is nice to see humility.
    [Laughter.]
    Representative Turner. We do appreciate the opportunity to 
be here, and it is a pleasure to share this time with my 
Chairman, Chris Cox.
    As you said, Senator Kyl, the effort to protect the 
homeland is a bipartisan effort and it has been an honor to 
serve with Chairman Cox.
    We all know that as we convene this meeting, it is very 
likely that someplace in this world a terrorist group is 
planning their next attack on America. While it is true that 
the first line of defense against Al-Qaeda is fought abroad, 
the focus of our hearing today is clearly upon being prepared 
in the event terrorists do overcome our best efforts to defeat 
them and attack America again.
    The first reports that I have gotten from the front lines 
here at home are not encouraging. I have talked with a lot of 
State and local officials, first responders who have come to 
Washington, men and women who are responsible for our safety. 
In many instances, they tell us that they have yet to hear from 
the Department of Homeland Security. They are clearly not 
receiving the kind of information, the kind of assistance, the 
kind of coordination that needs to be there in order to make 
the critical security decisions within their own communities. 
They are looking for answers, they are looking for funding, and 
it is our responsibility under the Constitution to preserve and 
protect the national defense and to ensure that they get that 
help.
    A lot of folks also are wondering about the homeland 
security advisory system, the color-coded system, and what does 
it really mean. When do we really act based upon what we hear 
and what action should we take?
    One message is clear to me. We must move much faster and we 
must be much stronger in our efforts to defend the homeland, 
faster in getting the vital information that we need to the 
front lines of those first responders, stronger in our efforts 
to train and to equip the men and women on the front lines, 
those firefighters, police, emergency management personnel, and 
health care workers. We must be more vigorous in our efforts to 
prepare our communities to face the threats from those who seek 
to do us harm.
    Last June 29, the Council on Foreign Relations Independent 
Task Force on Emergency Responders released a report that you 
will hear about in the second panel today entitled ``Emergency 
Responders: Drastically Underfunded, Dangerously Unprepared.'' 
I want to commend Senator Rudman, Richard Clarke, and Jamie 
Metzl for their work on this outstanding document. It clearly 
was a wake-up call for America.
    According to the data provided to the Council on Foreign 
Relations Task Force by leading emergency response officials, 
America is still falling an estimated $98 billion short of 
meeting the critical emergency responder needs over the next 5 
years. As Senator Feinstein cited, there are many other 
estimates, all of which are large.
    But it is important, I think, as Chairman Cox indicated, 
that we emphasize that money alone is not the only issue that 
we must address. I must say, in addition to funding and 
formulas, there are a host of other issues that must be 
addressed in order that we be responsible and accountable with 
regard to our effort to defend the homeland.
    The Council on Foreign Relations report stated that there 
are two major obstacles that hamper America's emergency 
preparedness efforts. First, it is impossible to know precisely 
what is needed because there is a lack of common understanding 
about the essential capabilities each community needs to 
respond to a catastrophic terrorist attack. Second, according 
to the CFR report, funding for emergency responders has been 
stalled due to a slow distribution of funds by Federal agencies 
and bureaucratic red tape at all levels.
    The work of this bipartisan task force makes it clear to 
all of us that we must move faster and we must be stronger to 
prepare our communities and protect America. We must make the 
same commitment to our local responders that we have always 
made to those who fight our battles abroad, our military 
forces, where we always say we want them to have the best 
training and the best equipment that we can provide. That same 
commitment must be made to those first responders.
    It is time, I think, Senators, to look at a comprehensive 
change in the way our preparedness programs are working. 
Secretary Ridge announced a few positive steps yesterday, but 
there remain several critical security gaps that must be 
addressed immediately.
    First, under Section 201 of the Homeland Security Act, the 
Department, and specifically the Information, Analysis, and 
Infrastructure Protection Directorate, referred to as the IAIP, 
has the responsibility to, one, carry our comprehensive 
assessments of the vulnerabilities of this Nation's key 
resources and critical infrastructure; two, to detect and 
assess terrorist threats to the United States; and, three, 
integrate this information to identify priorities for 
protective and preparedness measures throughout the Nation.
    Unfortunately, none of these tasks have been completed. The 
Office of Information Analysis, which is, as you know, an 
entity within the IAIP, is what I call the nerve center of that 
new Department. Its work should drive every action and every 
priority of that Department, as well as the efforts being 
carried out at the State and local level.
    It is only by matching the threats against our 
vulnerabilities that we can direct homeland security planning 
efforts and prioritize funding. Today, we have millions of 
dollars being spent in the name of homeland security through a 
myriad of grant programs. But until we establish the priorities 
through the proper analysis of our threats and our 
vulnerabilities, we will not be targeting the funding to remedy 
our greatest vulnerabilities first.
    Our security gap, then, is really that we do not know what 
we really need. The Department of Homeland Security has not 
worked with State and local governments to determine, based on 
threats and vulnerability assessments, the essential 
capabilities our communities need to prepare for terrorist 
attack.
    No one has said to the first responders, this is what we 
think is the basic minimum, essential level of preparedness. 
And because we do not know what equipment, planning, training, 
and personnel are truly needed, we certainly do not know the 
cost.
    There is an urgent need, in my view, to establish a task 
force to determine the minimum essential capabilities for our 
first responder community. In my view, this task could provide 
clear guidance on the necessary skills and resources required 
to prevent, prepare for, and respond to terrorist attacks.
    Communities could then create preparedness and response 
plans based on the local, regional, and Federal capabilities. 
The establishment of minimum essential capabilities would give 
the Department of Homeland Security and the Congress the 
funding requirements for the future. That is the first gap. We 
need to know what we need.
    The second gap is that the first responder grant system is 
broken. I share the sentiment of my Chairman, Chairman Cox. The 
current grants do not target the greatest needs and they take 
too long to reach first responders and they are overly 
bureaucratic. We need to fix this. We need to take many of the 
grant programs that are currently administered and fold them 
into a single grant program on terrorist preparedness. The 
traditional all-hazards grant programs like COPS and the FIRE 
grants, in my judgment, should be preserved.
    Finally, I think we lack the standards for first responder 
equipment. State and local agencies across the country are 
purchasing equipment to prepare for a terrorist attack, but 
they have no guidance on what or how much they should buy. 
There are hundreds of thousands of companies willing to sell 
them all kinds of products--air filters, weapons of mass 
destruction detectors, protective gear, emergency medical 
supplies, and on and on. You have had many of those vendors in 
your offices, as have I.
    We have an information vacuum and the Department of 
Homeland Security should be providing assistance to first 
responders to identify the standards that do exist and work to 
set standards that don't exist. This is a task that we must 
direct the Department to carry out.
    Finally, we desperately need terrorist threat information 
that is not currently readily available. We must make the 
homeland security advisory system meaningful and we must tell 
our State and local officials what the real information is that 
prompts the Federal Government to alert us to a higher level.
    The security gaps that we have must be addressed 
immediately, and next week I and many members of the Homeland 
Security Committee in the House will introduce legislation to 
address these shortfalls. Our legislation will be designed to 
identify the preparedness needs of our communities and create 
plans to meet those needs. It will maximize the effectiveness 
of every tax dollar spent on emergency preparedness because we 
will be able to spend the right amount of money on the right 
priorities. And it will strengthen the Federal, State and local 
partnership in the fight against terrorism by improving our 
communications capabilities and our threat warning system.
    Again, I want to commend the Council on Foreign Relations 
for their report, for the information that it has given us, and 
the prompting that it has given each of us as Members of 
Congress to move faster and to be stronger in this war on 
terrorism. We all know, Mr. Chairman, our enemies will not 
wait, and we know that we cannot wait either.
    I thank the Chairman and the Ranking Member for the 
opportunity to testify and we would look forward to any 
questions that you may have.
    [The prepared statement of Mr. Turner appears as a 
submission for the record.]
    Chairman Kyl. Well, thank you very much, Representative 
Turner. Senator Feinstein and I served together on the 
Intelligence Committee. She is still on the Committee and 
verifies, without going into any detail whatsoever, that the 
warnings from the report that there will be more attacks and 
that they could be extraordinarily serious, based on the 
intelligence, must be taken very seriously.
    So I think what both of you said hits the nail right on the 
head, and I hope that the signal we send by asking you to be 
our first witnesses that we are going to work together in a 
bipartisan way, in a bicameral way, because we are all in this 
together, will send that very strong signal. I commend both of 
you for the work that you have done on this. I know we are 
going to be working very closely together on the future.
    Senator Biden has joined us.
    Senator Biden, would you have anything to add for this 
panel before we call the next panel?

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Just to thank the panel, our colleagues. You 
have done a great deal of work, both of you, on this.
    I would just underscore the one thing that was implied by 
Congressman Turner's comments. It is not going to be someone 
wearing night vision goggles and special forces who is going to 
run across the terrorist who is about to take action here in 
the United States. It is going to be a cop. We are cutting 
cops.
    It seems to me absolutely brainless, on my part, to think 
that we would be cutting the amount of aid we are giving 
directly to local law enforcement at a time State and local 
budgets are being absolutely eviscerated. The Foreign Relations 
report points out that in the 25 major cities, the number of 
cops is down, the number of law enforcement officers is down. 
It seems to me totally counterproductive. I don't know why we 
can't walk and chew gum at the same time in this business. So I 
hope we will get that straightened out before we get too 
carried away with what else we are doing.
    Again, you guys are doing great work. You have done as much 
work or more work than anybody else in the Congress and your 
input and your testimony is much appreciated. I thank you very 
much for doing that.
    There is an old joke in my State. It is a little, tiny 
State and there is upstate and downstate. All of our States 
seem to be divided and we call it upstate and downstate my way. 
Those who are, quote, ``down home'' always say that the trip 
for meeting upstate is twice as far up as it is back. I know 
that it is twice as long a walk across as it is back, and we 
appreciate you making that effort and coming over here. Thank 
you very much.
    Chairman Kyl. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman. I would like to 
add my voice to thank you very much. I think you are right on 
on the threat level, and one of the things that has impacted me 
is the threat targets are pretty well-known. You can pretty 
much figure out with respect to Al-Qaeda how they work, where 
they go back, you know, some of these things. Maybe we should 
find a way to work together to be able to change that formula 
and base it on the threat level and specific targets, and see 
that those targets are protected.
    I just wrote a letter asking some that I know about be 
protected and didn't get a response that is suitable, and I 
really don't think our Government is prepared to face the 
specific threat target with what it needs to do to provide some 
layers of protection for people. I think we get so sanitized 
with grants and things that are kind of on paper instead of the 
real world out there. So I would like to see if we couldn't 
come together some way in a classified setting where we could 
discuss this a little bit.
    Chairman Kyl. Just one quick question, Chairman Cox, for 
you on the status of your legislation. Any idea when you will 
have action on the legislation?
    Representative Cox. Yes. As Congressman Turner just 
mentioned, we are moving forward this month with legislation. 
We hope to have hearings this month, possibly complete a markup 
even this month, and we are hoping for legislative action in 
this session of the 108th Congress.
    Chairman Kyl. Thank you. We will obviously make our 
transcript available for you, too, if that will help.
    Thank you again, both, for being here very, very much.
    Representative Turner. Thank you, Mr. Chairman.
    Representative Cox. Thank you, Mr. Chairman.
    Chairman Kyl. Let's ask our next panel to step forward--
Senator Rudman and Mr. Clarke and Dr. Posner.
    Since I already described the bona fides of our witnesses 
here, I am going to get, in the interest of time, right to 
them.
    I think, Chairman Rudman, it would be appropriate to call 
upon you first. Let me do that.

STATEMENT OF HON. WARREN RUDMAN, CHAIR, INDEPENDENT TASK FORCE 
                    ON EMERGENCY RESPONDERS

    Mr. Rudman. Well, thank you very much, Mr. Chairman and 
Senator Feinstein, and my friend, Joe Biden. You know, I was 
just sitting here watching this exchange between the Senate and 
the House and it just reminds me that if I have learned 
anything from the time I served here, it is that a few people, 
well-motivated, well-informed, well-staffed, can make a big, 
big difference. We have all seen it over and over again. 
Somebody dedicated to getting something done can get it done. 
And I am very encouraged by hearing the testimony of Chris Cox 
and Jim Turner, as well as the members of this Committee.
    You know, this is my third appearance here and I never 
expected in my life to become an expert in this subject. It 
started, of course, as you well know, with Hart-Rudman, which 
sadly predicted what eventually happened. The first Council on 
Foreign Relations report we entitled ``America: Dangerously 
Unprepared,'' and we decided to follow it up with this report.
    What I am going to do in a few minutes is just highlight 
some of the important things that we believe you ought to pay a 
lot of attention to.
    Chairman Kyl. Excuse me. By ``this report,'' this is the 
report you are referring to?
    Mr. Rudman. That is correct.
    Chairman Kyl. ``Emergency Responders: Drastically 
Underfunded, Dangerously Unprepared.''
    Mr. Rudman. We are going to do that and then my colleague, 
Dick Clarke--and there is nobody with a more distinguished 
career in this area than Dick Clarke and we were just so 
delighted that he was willing to help on this.
    To tell you about the task force briefly, it is in the 
report, but we had a former Secretary of State, two former 
chairmen of the Joint Chiefs, a former head of the FBI office 
in New York, a Nobel laureate in bioterrorism, and the heads of 
the National Football League and the National Basketball 
Association. Why them? Because they deal with huge venues with 
a great many people. The bottom line is that we got incredible 
cooperation from every first responder organization in the 
country.
    Dick is going to talk more about the process and the 
national standards, so let me just get right to some things 
that I would like to share with you that I think are probably 
the most important findings, and finally recommendations that 
we came up with.
    Let me say that these are kind of bullets. You know them, 
but some people don't know them. They are worth repeating. 
Senator Feinstein has already referred to some of these things 
in her remarks.
    On an average, fire departments in this country have only 
enough radios to equip half of the firefighters on a particular 
shift. They have no interoperability with other organizations. 
They only have breathing apparatus for one-third of the people 
on a shift, and only 10 percent of fire departments in the 
United States have the personnel and equipment to respond to a 
building collapse.
    One of the fascinating things about 9/11 is the ratio of 
killed to wounded was totally reversed. In most national 
disasters or natural disasters or combat disasters, you will 
have a much higher percentage of wounded, putting tremendous 
stress on the health system, as opposed to those killed. In 
this case, there were relatively few number of people horribly 
injured, but relatively few compared to those who died. People 
got out of the building, and those who didn't died. There were 
very few people to treat.
    In the next event--and I am convinced there will be a next 
event, whatever time cycle these people work on, whether it be 
conventional explosives, chemical, or biological--we just 
cannot afford to have these emergency responders unprepared 
because we then will have a much higher casualty ratio than we 
should have.
    Police departments don't have protective gear against 
weapons of mass destruction in most large cities. Public health 
laboratories don't have the basic equipment to diagnose what it 
is they are dealing with, and most cities don't have the 
equipment to deal with hazardous materials unless they are very 
large, sophisticated cities such as New York or Los Angeles or 
Boston or Philadelphia. Most places just don't have that kind 
of equipment.
    We looked at the finding issue and as Dick Clarke will 
mention in his remarks, people said, well, no, that is the 
wrong number. Well, maybe it is. We do know this, that nobody 
knows what the number is; nobody knows what the number is.
    One of the things that we strongly believe is that Congress 
ought to mandate as soon as possible the setting of national 
minimum standards for first responders. We certainly do that 
now with our fire departments. The underwriters bureau and the 
insurance companies decide what is a minimum standard for a 
fire department, or a police department in some cases. We don't 
have that here. We ought to know what that is because you can't 
allocate money even under the Cox-Turner plan unless you have 
standards at which you can measure what you are going to be 
doing.
    We believe that urban search and rescue capability is 
grossly underfunded. I have spoken about communications. 
Emergency operation centers ought to be regionally located. We 
have got to have more national exercises so when the real thing 
unfortunately happens, people know what they are doing.
    We have to enhance emergency agricultural and veterinary 
capability because undoubtedly we will see an attack on the 
national food supply at some point. And we have to have a surge 
capacity in the hospitals. If we don't have that, then we are 
going to have even more casualties than we would otherwise.
    Finally, we made a number of specific recommendations. We 
believe that Congress ought to establish a very different 
system for allocating scarce resources. You have already heard 
about that more eloquently than I can say it. We think this is 
absolutely vital; that, plus setting of the standards.
    Secondly, we believe the United States House of 
Representatives ought to transform the House Select Committee 
on Homeland Security into a standing committee, not a special 
Committee that could be done away with. We believe the Senate 
should consolidate all of these issues before the Senate 
Governmental Affairs Committee in terms of the general 
oversight of the individual agencies, not to cut out other 
committees where they have appropriate business, but to 
streamline the process.
    We ought to require that the Department of Homeland 
Security work with other Federal agencies to make sure that 
their grant programs are synonymous and synchronous and work 
together. I have talked about the prioritization.
    Finally, we do believe that the Department of Homeland 
Security ought to move the Office of Domestic Preparedness from 
its present location in the Bureau of Border and Transportation 
Security to the Office of State and Local Government 
Coordination in order to consolidate oversight of grants to 
emergency responders because, like everything else, there has 
got to be strong oversight of this money. How often have we 
seen money in grant programs going out for a good purpose and 
was misspent by people who just didn't know how to spend it or 
had other motivations? So we think the oversight is very 
important.
    Let me simply wind up by saying to you that when we sent 
these brave men and women that we have in Iraq right now into 
harm's way, we made sure that they had the finest chemical, 
biological, and communications gear that this country could 
afford. There was no holding back. Whatever they needed, they 
got.
    I think it is grossly unfair to ask policemen and firemen 
and emergency workers to have any less because we know from 
experiences in our own communities, no matter what the risk, no 
matter what the personal jeopardy, policemen, firemen, and 
emergency workers will go into the maelstrom to try to save 
lives. We ought to make sure that at least they can talk to 
each other, that they are well equipped and they have been 
adequately trained. When you read through the whole report, 
that is the essence of what we are saying.
    Again, thank you for inviting us. It is always a privilege 
to appear here, and let me repeat how I started. I do believe 
that people who are motivated and dedicated to get something 
done can get it done. You can get this done. I am sure of it.
    Chairman Kyl. Thank you very much, Senator Rudman. 
Sometimes, too, it just takes somebody that can separate the 
wheat from the chaff and get right to the point. It sounds very 
clear and very simple when you say it. I suppose when we go 
back and try to do all of this stuff, it will all of a sudden 
get very complicated. But you are always very good at getting 
right to the point and I think that is what is going to be 
especially useful to us here. Thank you.
    Mr. Richard Clarke.

  STATEMENT OF RICHARD A. CLARKE, SENIOR ADVISOR, INDEPENDENT 
               TASK FORCE ON EMERGENCY RESPONDERS

    Mr. Clarke. Mr. Chairman, it is an honor to be before this 
Committee again and I just want to say on a personal note 
before I begin that when I was in the White House under 
Democratic and Republican administrations, long before this 
issue was sexy or popular I could count on you and Senator 
Feinstein. I am glad to see that you are persistent and 
diligent on this issue because there is still a lot of work to 
be done.
    I will try to be brief and to the point and talk only about 
one thing and that is program planning, budgeting, process, and 
standards. We began asking the question how much is enough in 
the Pentagon in 1961, under Bob McNamara, and there was a great 
book published that year called How Much Is Enough about 
Pentagon budgeting.
    We have established over the years in the Pentagon a system 
of trying to figure out how much is enough. Now, we could all 
disagree about how much is enough, but at least in the Pentagon 
there is a process that allows you to quantify and have 
empirical data about how much is enough. There is a process 
that the Pentagon does every year. It starts with a threat 
assessment. It then has the military services stating what they 
believe are the requirements that they need to have.
    Now, every year the Navy says it needs 15 carrier battle 
groups. We understand that and they are never going to get 15, 
but they say that is their requirement. That is fine, and then 
the Secretary of Defense says here are my priorities and here 
is how much money you are going to have. And then, finally, 
that turns into program decisions for specific programs.
    It is all done on three levels--a high budget, a medium 
budget, a low budget--and it is all done over 5 years so that 
we are able to have arguments not just that my number is better 
than your number, which is what is going on now in homeland 
security, but rather this program meets this requirement; it 
does so over this period of time, and this program is more 
important than that program. And we can move components of the 
defense budget around and it is a very rational process by 
comparison to what is going on now in homeland security.
    You don't know how much is enough and we don't know how 
much is enough. We have done a process, we have put a number on 
the table. The Homeland Security Department says it is way too 
big. They said we must have been trying to gold-plate 
telephones. Well, we are not trying to gold-plate telephones. 
We just want communications equipment that works. Tragically, 
it did not in New York on September 11 and that is why we lost 
so many members of the New York Fire Department, because the 
radios didn't work inside the building.
    We want to be able to have an argument, not my number is 
right and your number is wrong, based on nothing or little or 
nothing. We want to have a process where there is empirical 
data and there are standards. What does every metropolitan area 
of a given size need for its hospitals, for its EMS, for its 
911, for its public health system, for its police, for its fire 
department? We don't have that data today.
    Now, if we could agree on targets, then we can talk about 
should we do that over 5 years or should we do it over 3 years. 
Should we do it first for cities of a million people or more 
and later for smaller towns? We don't have that process.
    If there is one thing this Committee, and I hope Chairman 
Cox's Committee could do this year that will make the process 
better next year, it is legislatively require the Department of 
Homeland Security to come in with a program planning and budget 
process, not unlike the Pentagon's, that tells us what the 
threat is, what the requirements are to meet that threat, and 
what alternative numbers are so that we can say we are going to 
do so much this year and we are going to have it done over 3 
years or over 5 years against a set of defined standards. 
Mayors and Governors today don't know how well prepared they 
are because they don't know what the standards are because no 
one has told them.
    I think this is a non-partisan issue, I think it is an 
empirical data issue, I think it is a program and budget issue. 
Until we establish a system, we are probably just throwing away 
money.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Clarke appears as a 
submission for the record.]
    Chairman Kyl. Mr. Clarke, thank you very, very much, and 
again welcome back to this Committee. You have provided this 
Committee with a great deal of both open-source and classified 
material over the years and we appreciate your assistance very 
much.
    Dr. Paul Posner, welcome and thank you for being here as 
well.

STATEMENT OF PAUL L. POSNER, MANAGING DIRECTOR, FEDERAL BUDGET 
   ISSUES AND INTERGOVERNMENTAL RELATIONS, STRATEGIC ISSUES, 
                   GENERAL ACCOUNTING OFFICE

    Mr. Posner. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    First, let me say that the Council's report, I think, does 
the valuable service of setting the stage to really rethink how 
we design and manage a partnership because, as we know, this 
problem exceeds the capacity of any one level to address 
effectively.
    The report fills a void by highlighting significant gaps in 
preparedness, and the most important gap it really reveals is 
how little we know about something basic: how much are State 
and local governments spending on this function. I mean, there 
is a wide range, I think, $26 to $76 billion. We need to get 
better estimates of what is out there as we try to intervene in 
a targeted way to really make a dent in this problem.
    The second thing we don't know is what should be spent to 
achieve a defined level of preparedness. Again, as the report 
notes, we can't do this with any precision because we really 
lack the fundamental standards and goals to define how much is 
enough.
    I think the report performs the service of beginning a 
dialogue to develop a more systematic baseline. I won't repeat 
what was said before, but there is a need for DHS and others to 
start this process. They could probably consult with other 
agencies who have been at this for a long time. We did a report 
highlighting best practices in needs assessments, thing like 
making sure that you subject needs to a kind of a cost/benefit 
test, making sure that you assess the needs against specific, 
discreet outcomes you want to achieve so that you are not just 
inventorying everything, but you are using some discriminate 
analysis. Those kinds of things are well-known and available to 
apply to this problem.
    Given the many needs and high stakes, it is all the more 
important that scarce resources at the Federal level be geared 
to fund the highest-priority projects with the greatest 
potential impacts on the problem. To do this, fundamental 
changes will be necessary in Federal grants for homeland 
security in three basic areas.
    One is the consolidation of fragmented programs, two is the 
better targeting of scare Federal funds, and three is providing 
accountability so that we know at the front end whether money 
is spent for purposes, not after the money has been spent.
    On fragmentation, we have got a table on pages 6 and 8 of 
my statement that lists 21 first responder grants across three 
major departments. Different recipients get these grants. Some 
are local fire departments, some are State fire marshals, some 
are State governments, some are public health departments. The 
point is we are empowering different actors with grants when we 
should be requiring them to work together.
    Second, different allocation schemes are spread widely 
across this 21, all well-intentioned programs, all established 
in different times, in different places, to deal with the same 
problem.
    And third is different requirements for matching, for other 
kinds of things, and the point is this has effects, real 
effects on performance. Some officials at the local level--I 
used to be one--might welcome this cafeteria approach to 
Federal grants. But I have had fire chiefs tell me they didn't 
get in business to figure out how to use the catalog of 
domestic assistance; they got in business to save lives. This 
is creating real confusion and complexity, high administrative 
costs, and inhibits coordination. Most importantly, it is very 
difficult to package these things together to address unique 
local needs.
    These are longstanding problems in Federal assistance and 
many other areas. There are options for rationalization, 
including consolidation, most importantly. Whether we call it 
block grants, I think we are going to have to figure out a way 
to package and consolidate these grants with national 
standards.
    EPA has coined a concept called performance partnerships, 
where States are given the option of moving money around, but 
being held accountable for specific and discreet performance 
goals. Those are very important concepts we need to think about 
here.
    A second important issue is the targeting, and I won't go 
into any more than what has already been said except to say 
needs are everywhere. The question before us with scarce funds 
is how to prioritize those needs, and I think that is the 
challenge that the Congress faces. States also face this 
challenge in their pass-through money.
    A third important area is fiscal provisions. How do we 
ensure that the scarce money we are spending is actually going 
to be used for homeland security and not supplanted and 
replaced where other State and local funds get reduced? That is 
a classic problem in grants. We have studies showing almost 60 
cents of every Federal dollar gets substituted. We can protect 
that here, and it is very important if we want our money to 
really go further.
    The final most important point is accountability. This is 
the real key to sustaining over time what we are trying to do 
here and it is important to have a sustained effort. We have 
seen other programs fall by the wayside because they were 
unable to justify themselves and their contributions. We need 
to be able to not only have those goals and standards, but have 
accountability processes that tell us what we are doing against 
those standards every year. Those standards in an 
intergovernmental setting need to be developed in partnership 
with our partners in the community.
    State and locals are equally fragmented as we are at the 
Federal level. A recent Century Foundation report highlighted 
the systemic problems within regions, within governments 
themselves. This is no secret; coordination is a challenge 
everywhere. We can influence that. As we have done in 
transportation planning, we can do that here if we design these 
grants in the way we want to.
    So the point is we need to know more systematically what 
needs to be done. We need to design programs to better ensure 
that we will be, in fact, able to deliver on our promises, and 
ultimately the sustainability and public support for what we 
are doing rests on this.
    Thank you.
    [The prepared statement of Mr. Posner appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Dr. Posner. I think the 
combination of what all three of you have said is just very, 
very enlightening. Let me begin by asking a couple of questions 
here.
    Since you have all mentioned the problem of standards and 
accountability and getting the assets where they are most 
needed, I am wondering, after the Department of Homeland 
Security has undergone the kind of analysis and assessment 
that, Mr. Clarke, you referred to, if it then said to its top 
areas of priority, for example, we have decided that one of the 
top priorities is to get these radios that will all talk to 
each other even in buildings with a lot of concrete and steel, 
and so on, and we have said these are the top three cities 
whose fire and police departments need them--we have bought 
them; no problem with standards. We have said you are the top 
20 cities to get them. We have prioritized and you can come and 
get them. No accountability problem; we have got the guys who 
will help train you.
    Granted, that isn't politically as popular as handing out 
grant money, but might that be a better way to approach this 
than the grant approach that has been discussed? I ask all 
three of you.
    Mr. Rudman. Well, you know, obviously that hypothetical 
would work, but let me point out that if you set standards, 
let's say, in the communications gear and said it has to meet 
this standard and we approve the following eight suppliers for 
that equipment and we are giving you a grant to buy ``x'' 
number of these, then that accomplishes the same thing.
    Incidentally, Mr. Chairman, if you would just allow me a 
brief diversion, I think I neglected to introduce, sitting 
behind me, Dr. Jamie Metzl, from the Council on Foreign 
Relations, who spearheaded this report. He is known to many of 
you and many of your staffs, and it would be negligent on my 
part not to introduce Jamie because his imprint is very much on 
this report.
    Chairman Kyl. I appreciate that.
    Any other comments? Dr. Posner.
    Mr. Posner. If I could just add, I think we have some 
choices in how we develop these standards. I mean, these 
standards could be focused on the kind of equipment you must 
have, or possibly a broader and more flexible way to do this 
would be to specify the outcomes we are trying to achieve. We 
want you to have interoperability.
    There are profoundly different ways this can be achieved. 
In fact, when you talk to fire chiefs, some of them don't, in 
fact, repurchase equipment for every vehicle they have. In 
fact, they buy these software patches that tie in disparate 
radios through the op center and permit interoperability that 
way.
    The point is, I think, as we think we about standards, 
recognizing we are dealing with a very diverse community, 
highly different rural and urban kinds of providers with very 
different kinds of provisions--and we have done this with other 
areas like emergency medical services. We have different 
standards for rural versus urban areas. We need to think a 
little more discriminately about how we develop standards. One 
way to do this that gives flexibility as well as accountability 
is to think about the measurable outcomes we are trying to 
achieve in performance, and back from there.
    Chairman Kyl. Mr. Clarke.
    Mr. Clarke. Senator, I think the procedure you outlined 
would work on some unique pieces of equipment that we want 
everyone to have in a certain class of city. I will give you an 
example.
    Using Federal dollars, a mass decontamination fire truck 
was developed and the first one went to Arlington, Virginia. It 
is designed to be able to move several thousand people through 
an hour who have been hit by a chemical and it decontaminates 
them and moves them through out the other end. The truck opens 
up and becomes a facility.
    Now, we can give money to each of the States and hope that 
each State then gives the money to the cities, and hope that 
each city then buys such a truck. There is only one place to 
buy the truck. There is only one organization making it. So we 
could save a lot of time and a lot of effort, if we believe 
that every city of a certain size should have that, just to buy 
it and give it to them. But that doesn't work for every piece 
of equipment.
    Chairman Kyl. Let me ask one more question and then turn to 
the other panelists here. Obviously, some of the threat 
assessment and decision about where to put what kind of 
equipment will have to remain classified, or you are just 
signaling to the terrorists where they needn't worry. So there 
will have to be an element of this that is not totally public.
    But subject to that caveat, could all of you be just a 
little bit more specific about the actual process for making 
the decision about how to prioritize this funding?
    The general outline of it, Mr. Clarke, you outlined and I 
think it is what all of you have talked about. You would want 
to get input from the local communities about what they think 
their vulnerabilities are, as Representative Cox talked about. 
But then let's get real specific about how we would politically 
make these decisions, because obviously Flagstaff, Arizona, 
might complain that Flagstaff didn't get anything, whereas 
Phoenix got all of this stuff, or whatever, and that makes 
political people nervous.
    So what is the best way to ensure that the best results 
attend and that we all can buy into them?
    Mr. Rudman. The vexing question that you raise--and, again, 
this is an open hearing, but I think I can say in an open 
hearing that there is adequate intelligence to do threat 
assessment on the capabilities and probabilities of chemical 
and biological attacks against this country.
    There is certainly no definitive information on nuclear 
incidents, be they conventional or dirty bombs, but we do know 
that there are a lot of radioactive substances that we knew 
existed at one place and various places particularly behind the 
Iron Curtain that aren't there anymore, and that is a matter of 
public record.
    Now, when you look at that kind of a threat assessment, at 
least I reach the following conclusion. You need a minimum 
standard at least locally in large places and regionally in 
other places to deal with any one of those combinations. And I 
will add a fourth one. Large explosives of a conventional type 
can cause as much havoc in downtown Los Angeles or downtown 
Phoenix as almost anything else, and create enormous chaos and 
casualties.
    If you believe that terrorists' design is to demoralize the 
American people--and that is obviously what it is--and to make 
us fight amongst ourselves and withdraw from the world, then 
they will use any one of those means they can in combination, 
if necessary, to inflict that. So my answer is that there is 
enough information known to decide how you are going to 
prioritize your funds.
    If you were to ask me, Senator Kyl, after looking at this 
for the last 5 years--if someone would say to me, you make the 
decision and you have unlimited money, I would do it in this 
way. I would, number one, make sure that communications were up 
to snuff and interoperable in every major city in America and 
then work down from there.
    Number two, I would make sure that there was chemical and 
biological equipment for the first responders and for the 
health laboratories to understand what they are dealing with. 
The third thing that I would do is make sure that the public 
health system had a surge capacity.
    Those would be my three priorities, which deal with all 
three of those possible threats.
    Chairman Kyl. Thank you.
    Any other comments? Mr. Clarke.
    Mr. Clarke. I agree with Senator Rudman's priorities, but I 
would also say that, by and large, critical infrastructure 
targets correlate with population density. It is a good rule of 
thumb. It doesn't always work, so if I were doing a formula, I 
would put most of the formula money into population density and 
then I would say you get additional points if you have a 
nuclear reactor in your town. If, as in Senator Biden's case, 
you have a very large chemical plant that has some rather 
potent chemicals sitting there, that gets additional points.
    Chairman Kyl. Excuse me, but in each of those cases, then, 
you would also insist that the money that is granted based upon 
that formula be directed to the threat against that particular 
kind of target?
    Mr. Clarke. Against that particular facility, yes. It 
couldn't be spent for anything, yes, but I think you can come 
up with a simple grant formula. But there is a key to this that 
is often overlooked because States give the money out now. The 
Federal Government gives it to the States and the States, in 
turn, give it out to cities and towns.
    Really, we need metropolitan concepts, and all too often 
the money goes to one city or one town in the metropolitan area 
and doesn't build a metropolitan capability. I would like to 
condition some of the money going to metropolitan areas on the 
cities and towns cooperating with each other.
    As you know very well, there is a lot of political in-
fighting between suburbs and core cities, and not always do we 
find their fire departments and police departments and 
hospitals cooperating with each other in planning or in 
developing capabilities. In some places that happens; usually, 
it doesn't.
    There should be some incentive process or perhaps a 
withholding of money until metropolitan councils of government 
put together cooperative programs that take into account all of 
the assets available in the metropolitan area and have a 
metropolitan plan.
    Chairman Kyl. Thank you.
    Dr. Posner?
    Mr. Posner. Well, I think the process that has been 
described would be far more analytic than what we typically do 
in allocating Federal funds, and would be obviously very 
salutary. Typically, what we do is rely on proxies for those 
things. Now, here, I think density may serve as one proxy, but 
the extent to which we can get hard data on relative threats, 
relative vulnerabilities, and use that as a guide, I think we 
would be well ahead of the game.
    I also think it is very important to observe the role of 
the State here, the notion that we may need to give guidance as 
to how States pass money through, which right now, as you have 
indicated and as others have indicated, is a kind of a very 
understudied area, to understand how States are actually 
allocating those funds, and ultimately think about ways to 
involve the States and their capacity for coordination in 
allocating these funds.
    I know there is some sensitivity about whether the money 
goes directly to locals or goes through the State. One area we 
have seen a combination observed is in transportation, where 
the States are required to develop a statewide plan that lays 
out broad goals. Money can go directly to other recipients, but 
the project has to be contained in that statewide plan so that 
the plan becomes kind of a vehicle for coordination.
    Chairman Kyl. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    When I was mayor, I tried to do some of this and it was 
very interesting because we did it with the threat of major 
earthquake in San Francisco and realized that everything goes 
down. The new, fancy telephones go down absolutely, so you have 
no land line capacity.
    We finally had department heads that carried a radio and we 
rehearsed the radio every Monday morning at 7:30 to see that 
everybody was online and they carried that radio with them. Of 
course, in the days that followed, we built a new emergency 
communications center and communications became much more 
interoperable.
    But what really concerns me, because I have seen it now, is 
the panic that ensues when you can't communicate, you can't get 
information. You don't know what streets to move in heavy 
equipment. You don't know where to get that heavy, street-
clearing equipment. You don't know where to pick up your 
emergency off-duty police and fire. So all of that has to be 
pre-structured, written in a plan, rehearsed, and known.
    I think that the ideas that you have on pages 4 and 5 of 
your executive summary really constitute a bill, and so my 
question to you is would you be willing to work with us and we 
try to take these very concepts and put them into bill 
language?
    Mr. Rudman. We certainly would, Senator Feinstein, and we 
would also make available to you the people that we worked 
with. If you look at the index of who we worked with, I mean it 
is some of the people across this country, including from your 
State, that have extraordinary knowledge in this area. So the 
answer is obviously, if we could, we would be delighted to.
    Senator Feinstein. Great.
    A second question. With respect to interoperability, it is 
my understanding that for a couple hundred thousand dollars, a 
community can buy these vans and that these vans have the 
capacity to make existing systems interoperable.
    Have you looked at these? Do they work and are they 
adequate?
    Mr. Rudman. Well, they do, and I think Dick Clarke may know 
more than I, but I am aware of the fact that a number of cities 
are buying software conversions that enable them to not buy 
whole new radio systems, but small black boxes that go into 
these radio systems that make them interoperable at a fraction 
of the cost of tearing everything out and putting something new 
in.
    I think I am correct about that, Dick.
    Mr. Clarke. I think that is exactly right.
    Senator Feinstein, you mentioned the San Francisco 
emergency communications facility which you helped to create. 
We went there as part of the study and what we found is that 
you are absolutely right. They are relying a lot on telephones, 
and the collapse of a few telephone buildings here and there, 
intentional or otherwise, and you are out of business.
    Yet, as we saw on 9/11, and as we saw during the Northeast 
power blackout, the Internet works even during these times of 
crisis. Yet, all too often there are no Internet communications 
available to fire and police. The chief of the fire department 
in San Francisco said he would love to be able, when they roll 
on a building with a fire truck, to have a computer in that 
fire truck and to be able to pull up the building plans from 
city hall that are on file so he will know what the building 
looks like before he sends his people inside.
    Senator Feinstein. In other words, kind of like a basic car 
plan that police have.
    Mr. Clarke. Exactly, but all too often we find in police 
and fire departments around the country that they are really 
still 20th century, that they are not using computer 
technology; they are not using IP, Internet protocol, devices. 
So there is a lot that could be done. I think that is why 
Senator Rudman says our first priority would be communications.
    Senator Feinstein. Just as a former mayor who dealt with 
this, I think that is right.
    Mr. Rudman. When people can't talk to each other, there is 
panic that results if there is an emergency. It is absolutely 
essential and we think it is the number-one priority.
    Senator Feinstein. I have watched as certain targets seem 
to crop all of the time, and yet nothing really changes out 
there to really deal with those targets, to make them less 
vulnerable. I think if we could just deal with the 
communications situation, we would be a lot better off with 
police and fire.
    So if you would work with us, maybe we should try to put 
something together and have the other Senators here, who I know 
are interested, work on it as well.
    Thank you.
    Chairman Kyl. Thank you.
    Senator Biden.
    Senator Biden. Thank you very much for a very good report.
    Warren, I am sorry you are not still here.
    Mr. Rudman. I am not, Senator Biden.
    Senator Biden. Well, I am, but in a sense--and I am not 
attempting to be humorous; I am being very serious--because of 
your stature you have been able to take on a role not just on 
this report, but in other activities you have engaged in which 
quite frankly carries with it a greater credibility than if you 
were one of us still here, and it much appreciated.
    Mr. Rudman. Thank you very much. I appreciate that.
    Senator Biden. I want to thank all three of you and thank 
you for your good judgment in hiring Jamie Metzl. In the good 
old days when I was Chairman of the committee, I had enough 
money to have him on my staff. When we lost a third of our 
staff, that was what happened, but my loss has been your great 
gain.
    Gentlemen, I would like to raise a couple of points. First 
of all, we do have several models, not the same, but several 
models of how things work. We worked on this Committee for a 
long, long time trying to deal with law enforcement issues. We 
finally came up with a bill called the COPS bill, which has 
about a 1-percent overhead and worked pretty well, and very 
little loss of income.
    We concluded several things bipartisanly. One, if it goes 
through the States, it gets screwed up, not because the States 
aren't competent, but because the States are just a replication 
of what we have here, and that is you are going to have the 
representative from Frankford, Delaware, who has one vote, 
along with a representative from the east side of Wilmington, 
Delaware, which has one vote, presenting the Governor with an 
ultimatum that if they don't each get an equal share of the 
money that comes through, they are going to have a problem.
    State legislators are going to do what we would do had we 
had a higher body from which we got money. They are going to 
make sure that they do what you suggested, Dr. Posner, that 
they substitute. I found when I wrote the COPS bill that one of 
the reasons to write it the way I did was that the money I 
thought we were sending back to local law enforcement was going 
to pay public defenders and judges.
    The reason for that was legislators don't want to use State 
tax money to pay public defenders and judges; they are not 
popular things to do. So the Federal Government would pay with 
money that was designed for the cops for the State judges and 
the public defenders, both of whom are very important, but they 
were things that they didn't want to be on record as voting 
for. So the money wasn't going to the cops.
    I have three areas I want to mention with you. What I find 
you at odds with yourself a little bit about generically, 
anyway, is this idea of giving flexibility, observing the State 
role and not wanting the money to be wasted, and at the same 
time talking about block grants. Block grants are a guarantee 
this money will be wasted, an absolute guarantee. I am willing 
to stake my political career on it. It is a guarantee that it 
will be wasted.
    I agree with my Chairman. He and I are in different 
parties, different philosophically, but on most of this law 
enforcement and terrorism stuff we have been on the same page. 
The role of the Federal Government, it seems to me, should be 
doing what we do best and let the States do what they do best.
    What we do best is with relation to terrorism because no 
State is capable of dealing with terrorism on their own, no 
matter how good they are, because it is international by 
definition, cross-jurisdictional by definition. So we should be 
the ones setting priorities, not the States. The States can set 
priorities of their own, with their own money. If they want to 
set priorities and they want to buy everybody a new engine, 
fine, they can do that.
    Out of the Department of Homeland Security, we should be 
saying this is the priority we have for allocating Federal 
monies, whatever it is. I happen to agree with Warren, or all 
three of you. Communications is right at the top of the list, 
but if we put this out in block grant money, you are going to 
find they are doing everything from paying for traffic lights 
to making sure that homeland security has a nexus to whether or 
not school nurses are trained in emergency preparedness, and 
everything in between.
    Mr. Rudman. Senator Biden, we agree with you. We don't 
suggest block grants.
    Senator Biden. Okay. Well, I was a little confused, but I 
am a little confused, then, about observing the State role. I 
have no desire to observe the State role, zero, none, none, and 
not because I don't have great respect for the States. The 
States can do whatever they want, but the States, it seems to 
me, if we are providing Federal monies, should have these 
standards. There should be standards against which we measure 
what we are going to do, and let me give you an example.
    In the COPS bill, we made a Federal judgment--and you voted 
for it, Warren; you are one of the few who did on your side.
    Mr. Rudman. I certainly was.
    Senator Biden. Here is what the Federal judgment was, that 
community policing was the sine qua non for dealing with law 
enforcement locally, and in order to get any Federal money, 
your entire department had to be engaged in community policing, 
a conceptual difference from the way all police departments 
were functioning up to then.
    So we leveraged 100,000 cops into 675,000 community police. 
There had been about 40,000 nationwide before. It was that the 
100,000 cops became community police. If you wanted to get any 
money for your department, you had to do two things: one, make 
sure, if you were authorized for 100 cops now, you did not get 
a single penny for cops unless it was for your 101st cop.
    Secondly, if you got money for your 101st cop, all 100 
below it had to be moved into community policing, because that 
is what all the national survey data and the criminologists 
suggested, that that is the best way to deal with crime. And 
guess what? It worked. It is not the only reason it worked, but 
it worked.
    So what I am trying to get at here is it is much more 
complicated dealing with homeland security than just cops. I am 
not suggesting that is not true. What I am suggesting, though, 
is the identification of the vulnerabilities that are beyond 
the capacity of the States to deal with are ones which--and 
what has happened out there is the average American thinks the 
106 or 108 nuclear power plants in America are secure. Not a 
damn one of them is secure.
    You mentioned my State. You can take off from Philadelphia, 
Pennsylvania, in an aircraft and before you get to 15,000 feet 
you can nose-dive into one of the largest nuclear power plants 
in America that is one of the most poorly-run in America, and 
nothing has been done to secure that plant in any way, any way 
at all, zero.
    You can get on this Amtrak train, and I know I am a broken 
record on Amtrak, and you go through a tunnel in Baltimore that 
was built in 1869, no lighting, no ventilation, no way out, no 
escape, no prospect of survival, none. They had a conventional 
fire in that tunnel and it closed down Baltimore--not the 
tunnel--it closed down Baltimore for a day-and-a-half, a 
conventional fire.
    So I don't know why the Chairman's suggestion isn't a good 
one that we federally--not the Congress; we shouldn't be doing 
this. We should be signing off on it; that the administration 
identify what are those vulnerabilities. We can parse it any 
way at all. We can say we want to make sure that every nuclear 
power plant is secure, or we want to make sure that every major 
chemical plant, or we want to make sure that every bridge or 
tunnel, whatever it is.
    Secondly, it seems to me that we ought to be able to say, 
which is the part that absolutely blows me away--whether you 
are right about your number exactly, the one thing I am 
absolutely right about is you are a hell of a lot closer to 
what the number is than what we are saying it is for homeland 
security.
    Mr. Rudman. I think that is probably true, Senator Biden.
    Senator Biden. I mean, it is not even close, and we have 
done other programs where urban and rural have not had a 
problem in dissemination of this funding. Let's talk about 
first responders. If you let the department make its 
application against a standard for which they have to make the 
case to a reputable--and it is reputable--to a governmental 
agency here in Washington that says this meets the standard, 
this doesn't meet the standard--and this is a question and I 
would like to ask if you considered this. It is not necessarily 
within your brief here.
    But one of the ways--and I know you remember, Warren--that 
we get States to sort of focus in on this stuff more tightly is 
when, in fact, the States have to kick something in as part of 
it; in other words, if the State has to come up with 10 
percent, or 15 or 20 or 5 percent of the funding for those 
things which affect--I mean, the Senator from New York just 
walked in. Every time we go on orange alert, there is no 
Federal cop that is guarding the Brooklyn Bridge or the Lincoln 
Tunnel and the cost to the City of New York goes out through 
the roof for all of this.
    Senator Schumer. Five shifts, seven hours, two at each end, 
twenty just for that.
    Senator Biden. So I guess what I am trying to say is that 
there may be a way that we can follow the Chairman's lead here. 
I would like to see something come through here, not directing 
the States but directing the Federal Government to set down the 
priorities and the standards by which funding would be made 
available.
    The first thing is, as you said, Mr. Clarke, the threat 
assessment. That is what they do over there in the military. 
Everything flows from the threat assessment, and I would be 
interested in you working with us to help us out here, but the 
threat assessment is a little bit different in this sense, not 
giving a threat assessment from an intelligence perspective 
merely as to whether or not there is Al-Qaeda or any other 
organization out there that has a particular target, but a 
threat assessment based on vulnerability.
    Vulnerability seems to me to be the place that we could 
probably agree on that which is most vulnerable and which are 
not the most likely targets, not based on intelligence, but 
based on common sense. You don't have to be a rocket scientist 
to figure out, if you want to take out a lot of people and you 
want to get involved with anthrax, sarin gas, some other 
chemical, or a dirty bomb, a good place is a place in the six 
tunnels under New York City where, every moment during a 12-
hour day, you have as many people sitting in a train car as you 
have in 5 full 747 jets. If you want to get something done, 
that is a good place, that is a good place. By the way, I will 
get letters saying don't tell the terrorists. The terrorists 
know this stuff; they know this stuff.
    So, anyway, I think it is a first-rate report. I would like 
to hear much more from you, Mr. Clarke, on sort of the 
methodology, along with Dr. Posner, about how you come up with 
a formula. But I am glad to hear the block grant route isn't 
the place you are pushing.
    Mr. Rudman. Before they answer, I just want to tell Senator 
Biden that we certainly do not disagree with your view about 
block grants. Number two, we think that many of these grants 
ought to go directly to localities. Number three, I have always 
believed in matching funds because then you have some stake in 
it.
    Finally, the whole process we talk about here is threat 
assessment, however you want to do that, a setting of national 
standards and then meeting those standards. But I would defer 
to Dick Clarke and Dr. Posner on the other issues.
    Mr. Clarke. Senator Biden, I completely agree that when I 
say a threat assessment, that is shorthand for threat and 
vulnerability assessment. We can't determine grants based on 
FBI reports about is there an Al-Qaeda cell or not, especially 
since I don't think the FBI has a clue, frankly, where the Al-
Qaeda cells are.
    It doesn't matter really whether it is Al-Qaeda or 
Hizbollah or whoever the next group is going to be. It matters 
whether or not there is a facility that is important, a 
critical infrastructure, and whether it is vulnerable to 
attack.
    I think if you want to give points out on the basis of such 
facilities as part of a formula for giving money to cities or 
metropolitan areas, I think that makes sense. We don't have any 
particular brief for the money going through the States. We 
don't say this in the study, but what our study indicated to us 
was that the States basically take a cut and slow it down.
    But I come back to the notion of doing this by metropolitan 
area. I mentioned a few minutes ago the mass decontamination 
fire truck that is in Arlington. Washington, D.C., doesn't have 
one; it doesn't need one because Arlington can be here in three 
minutes, across the bridge, assuming the bridge is still there.
    So we really need to take a look at the SMSAs, the standard 
metropolitan statistical areas, and say what does an SMSA of 1 
million need, what does an SMSA of 5 million need, tell them 
what they need, where it makes sense give it to them, give them 
the equipment, where that makes sense.
    Senator Biden. This is the only place, in my experience, 
where the State people are coming to us and saying, don't just 
help us with money, tell us what we need, tell us what we need.
    Mr. Clarke. The other thing we heard was, okay, we know we 
need ``x,'' but there are 400 companies that have sprung up 
overnight because they smell the scent of Federal money; tell 
us which one of this list of 400 companies makes a product that 
works, because cities and States can't figure that out.
    Mr. Posner. I want to make clear what I said in the 
statement that we don't think a pure block grant works in this 
situation either, for the very reasons that you have said. 
There are very strong national goals and standards that we need 
to develop, and I think the States, as you say, agree with you.
    What we are trying to say is there is consolidation that is 
in order, because what we are saying is can you define national 
goals and standards, but give flexibility in terms of how you 
spend that money. What we are seeing right now is the 21 first 
responder grants are so narrowly defined. The local governments 
get this money for equipment. They already have the equipment 
and they want to use it for training and they can't use it for 
training. So that is the concept we are trying to get across 
here.
    Senator Biden. We struggled with that in the COPS money, 
too, and we finally came up with a way to do that. You are 
right, I think.
    I thank you, Mr. Chairman.
    Chairman Kyl. Thank you very much.
    Senator Feingold.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. I want to thank 
you and the Ranking Member for holding this important hearing, 
and I want to thank the witnesses for being here and for so 
clearly bringing to the attention of the Nation the dramatic 
underfunding of first responders.
    The title of the task force report, ``Emergency Responders: 
Drastically Underfunded, Dangerously Unprepared,'' says it all. 
Sadly, the conclusion of this report doesn't really come as a 
surprise to the emergency responders that I talk to Wisconsin, 
who, like their counterparts throughout the country, simply do 
not have the funds to get the equipment and training they need 
for responding to a terrorist incident.
    First responders on whom we all depend need our help to be 
ready. We all know it, we all say so, but Congress and the 
administration have so far failed to provide the necessary 
resources. The big problem is that our priorities are out of 
line. Our budget choices do not reflect the passionate 
rhetorical flourishes that are so commonly employed here in 
Washington.
    We say this Nation's number-one priority is the fight 
against terrorism. We all agree that first responders play a 
critical role in this fight. So why aren't we acting like it? 
Why aren't we working together with State and local governments 
to fill the 5-year, $100 billion shortfall found by Senator 
Rudman's Independent Task Force on Emergency Responders?
    The problems facing first responders from the city of 
Kenosha, Wisconsin, for example, are emblematic of those facing 
first responders throughout the country. Two years after 
September 11, Kenosha emergency responders are still trying to 
get the updated integrated communications equipment they need, 
which you have been talking about. I have also heard from many 
fire departments throughout Wisconsin that have been trying to 
acquire much needed breathing apparatuses, but simply do not 
have the funds to do so.
    Police departments are also feeling the strain of added 
responsibilities to protect our Nation against a terrorist 
attack, while being squeezed for funding because the 
administration has drastically cut or eliminated crucial 
Federal funding programs.
    Former Green Bay Chief of Police James Lewis wrote to me on 
behalf of 20 other Wisconsin police chiefs earlier this year to 
express concern about cuts in the COPS, local law enforcement 
block grants, and Byrne grant programs. Particularly in rural 
areas, local law enforcement is heavily dependent on these 
funds.
    Chief Lewis wrote, ``Without adequate Federal support, 
local law enforcement will not be able to continue its 
innovative approach to addressing local crime issues and facing 
the new issues of terrorism that are confronting our country.'' 
I think Congress has to heed this warning before the next 
attack shows how shortsighted these cuts really are.
    So I do thank you, Mr. Chairman, for holding this hearing. 
It is obvious that a lot of work has to be done to assist our 
Nation's first responders, and now I would like to just ask a 
couple of questions.
    I would like to ask either Mr. Rudman or Mr. Clarke, in 
response to your report a Department of Homeland Security 
spokesman called your cost estimate for funding first 
responders, quote, ``grossly inflated,'' unquote. Others have 
said that funding levels should not be raised significantly 
because the funds simply could not be absorbed efficiently.
    Do you believe that emergency responders could efficiently 
use the funds you recommended they receive? Senator Rudman?
    Mr. Rudman. Well, we do, and let me comment on that 
comment. The curious thing about that comment was it was made 
at a time when the person making it could not have read this 
report. It was an instant comment, a typical defensive 
bureaucratic response by a public relations flack who should 
have been fired for what he said. He also said that we 
requested gold-plated telephones. If you consider we had two 
former chairmen of the Joint Chiefs of Staff, a former 
Secretary of State, and a Nobel laureate, I mean really these 
are serious people.
    Having said that, we gave a range and we say that we really 
don't know what that amount is. We know it is closer to our 
number than what is currently being spent. One of the reasons 
we think national standards ought to be mandated by the 
Congress as soon as possible is require national standards to 
be mandated, then you can add up the dollars and cents that it 
takes to meet those standards and decide how much you want to 
spend.
    But, no, there is no question. We worked with your 
constituents. We worked with the National Association of 
Firemen, police chiefs, emergency responders, and your 
hospitals associations from all over this country. If you look 
in the back of this book, you will see all of the people we 
worked with. They are very serious people who are faced with a 
daunting task who feel they are hopelessly unprepared to deal 
with it today.
    Now, before Senator Schumer came in, I made the observation 
that the kill-to-injured ratio in New York was backwards. In 
most instances where you have an event like this, you have 
thousands of people badly injured and a few hundred people who 
unfortunately die. In New York, it was quite different than 
that.
    In most events that I have seen scenario planning on, you 
have a much higher percentage of seriously injured people 
either with chemical or biological weapons or with conventional 
explosives and fire. It is absolutely essential that the people 
who are on the first line of defense--the policemen from 
Milwaukee, the firemen from New York, whatever--have the 
equipment to deal with it and the hospitals have the surge 
capacity to handle it. That is all we are saying.
    None of us know when it is going to happen, but, you know, 
we have a lot of fire departments in this country and sometimes 
they sit and play poker for three weeks in a row and then all 
of a sudden they have got their hands full night, after night, 
after night. Same situation.
    Senator Feingold. Mr. Clarke?
    Mr. Clarke. The criticism that our number is too high and 
their number is Goldilocks, is just right, I think, highlights 
what the problem is here. They don't have a methodology. Until 
the Congress requires the Department of Homeland Security to 
have a methodology, we will continue to have these pointless 
arguments about my number is better than your number.
    This is not rocket science. Take the standard metropolitan 
statistical areas of various sizes, articulate a standard set 
of equipment and training and facilities that we want for each 
one of them for SMSAs at size A and size B and size C, cost out 
how much that will cost, do the addition and the 
multiplication, and you will know how much we need. We don't 
know now because no one has done that, and I despair, frankly, 
of the Department of Homeland Security ever doing it unless you 
make them.
    Senator Feingold. Thank you, Mr. Chairman.
    Chairman Kyl. Senator Schumer.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman, and I want to 
thank you for the diligence which you have shown in holding 
hearings on this and many other subjects dealing with 
terrorism.
    I want to thank our witnesses, particularly Senator Rudman 
and Mr. Clarke. Dr. Posner is doing his job, but these two are 
sort of the Paul Reveres warning us about homeland security, an 
issue I have felt very keenly and very strongly about. And you 
are right; you can quibble with the number, but you can't 
quibble with the idea that we are just not doing enough.
    I feel sort of, Mr. Chairman, that we are sort of maybe at 
a low point. We have Al-Qaeda on the run. Most experts say that 
they are weaker now than they were on 9/10, and the number of 
terrorist organizations that can do dastardly deeds is small. 
But it is going to grow because the very technology that 
blesses our lives allows small groups of people to do horrible 
things. For all we know, God forbid, the Chechans will decide 
we are the enemy and not Moscow, or the East Timorese or the 
skinheads in Montana. God knows.
    The sad fact of the matter is, Mr. Chairman, that if all of 
us in this room were at once bitten by an evil virus and we 
decided fanatically to devote the next 5 years of our lives to 
doing real damage here in the United States, the odds are too 
high we could succeed. That is the problem we face.
    I have been supportive of the President taking action 
overseas. I think it is the right thing to do. I have my 
disagreements with how he did it. But faced with the choice of 
doing nothing, as some in my party would recommend, or doing 
exactly what the President did, I would still to this moment 
choose to do what the President did.
    But on homeland security, they are not showing the same 
vigor, the same interest, the same pursuit, and I think a lot 
of it, frankly, when I talk to people in homeland security, is 
fiscally-related. It is not that they don't want to do it; it 
is not even that they are ideologically opposed to doing it, 
but it is fiscally-related.
    Do either of you want to comment on what I had to say? And 
then I have a few questions.
    Mr. Rudman. I would agree with virtually everything you 
said, probably everything you said, Senator Schumer. You know, 
I don't envy you the task you have up here this year. You are 
facing a $450 billion deficit which, in my view, could go to $6 
or $700 billion in 2004 or 2005. You are talking about enormous 
expenditures for a new prescription drug program which both 
parties want, and you are faced with a homeland security issue 
which is in dire need.
    Now, how you juggle all of those I just don't know, but 
that is why it is so essential--and it has been really Dick 
Clarke's programmatic thinking, because that is the discipline 
he has had in Government for all the years he has served, and 
Dr. Jamie Metzl that convinced us that the most important thing 
to do, and we put it in the report, is to do a threat 
assessment based on a number of factors, as we have discussed 
here today, and then set some standards, plug some numbers into 
those standards, and at least you know what the number is.
    Maybe it is not 90; maybe it is 62, maybe it is 112. And 
then when you have that number and you look at prescription 
drugs and you look at Iraq and you look at Afghanistan, then 
you all decide. That is why we were all elected to this place 
at one time, to make those kinds of miserable decisions, but 
you have to make the decisions.
    You surely can't make that decision based on throwing darts 
against the wall, which is essentially where we are right now. 
That is the single most important message that we bring here 
today. The report has a lot of good data in it, but to me that 
is the single most important message we have.
    Senator Schumer. Again, I am sure the Chairman and everyone 
who has been here before me would join me in thanking you 
because both of you now are private citizens and you are doing 
this because you care about America. You know, I wear this flag 
in memory of the 3,000 who were lost in New York. I don't want 
anyone in the country to have to put on another flag to wear.
    I just have a few more questions--I know the hour is late, 
Mr. Chairman--of Mr. Clarke related to terrorism, although not 
necessarily to homeland security.
    Chairman Kyl. Excuse me, Senator Schumer. Could I just 
interrupt you for one second? I want to make sure before I have 
to leave that Senator Leahy's statement will be accepted for 
the record. The record will be left open for one week for 
questions of our witnesses and for other statements that 
anybody would like to make.
    At about eight minutes after, I am going to have to leave 
and I would like about one minute before I leave. But the floor 
is yours until----
    Senator Schumer. So cut me off at 4:07, Mr. Chairman.
    Chairman Kyl. Good. Okay, thanks.
    Senator Schumer. I think we will have enough time; maybe 
not. And you may find this interesting because it is an issue--
--
    Chairman Kyl. I know I will find it interesting.
    Senator Schumer. No, but it is an issue you and I have been 
working on. Senator Kyl has been very, very out front in 
chairing hearings on Wahabi-ism and what it means and how we 
have ignored it. We hope to have more hearings on this issue. 
We even wrote an op ed together, which I heard while we were 
away got published in the Washington Post.
    There is a report out today about an article that is going 
to--or is, I think, being made public today or tomorrow in 
Vanity Fair, which has done pretty serious journalism, where 
you are quoted, Mr. Clarke, and I just wanted to talk a little 
bit about it.
    The basic thrust of the article is that right after 9/11, 
when no one was allowed to fly, some special planes were able 
to spirit Saudis out of the country; that it had top clearance, 
that some of the members on that plane were members of the bin 
Laden family.
    Now, let me posit that much of the bin Laden family is not 
allied with the terrorist bin Laden and, in fact, are part of 
the Saudi rulers or, you know, upper class, ruling class, 
whatever you want to call it. But two, at least, of those bin 
Ladens had been under some suspicion for other kinds of 
terrorist activities or supporting terrorism in the past.
    This reporter seemed to do a pretty good job. He 
interviewed some private investigators who received a call 2 
days after 9/11 asking them to escort Saudi students on a 
flight from Tampa to Lexington, Kentucky. He interviewed some 
airport officials who knew that the planes had gotten top, top, 
top clearance when no one else could fly, and a bunch of other 
people.
    Can you tell us what you know about this? You are quoted in 
the article, and again I think you are doing a service because 
one of the things the Chairman and I have felt is that we 
haven't gone deeply enough and looked into enough the 
relationship between some in the Saudi leadership and 
terrorism.
    Mr. Clarke. Senator, as I recall the event--as you know, I 
was the national crisis coordinator on 9/11 and 9/12, making a 
lot of decisions, or implementing a lot of decisions. I do 
recall the State Department coming to us that week, and I don't 
remember what day, and saying that the Saudi embassy felt that, 
in the wake of the terrorism attacks, Arabs in this country, 
particularly Saudis, might be victims of retribution attacks. 
And they wanted, therefore, to take some Saudi students and 
other Saudi citizens back to the Kingdom for safety, and could 
they be given permission to fly even though we had grounded all 
flights?
    What I recall is that I asked for flight manifests of 
everyone on board, and all of those names to be directly and 
individually vetted by the FBI before they were allowed to 
leave the country. I also wanted the FBI to sign off even on 
the concept of Saudis being allowed to leave the country. As I 
recall, all of that was done. It is true that members of the 
bin Laden family were among those who left. We knew that at the 
time.
    I can't say much more in open session, but it was a 
conscious decision with complete review at the highest levels 
of the State Department and the FBI and the White House.
    Senator Schumer. Now, in this article--and I don't want to 
tear into the Chairman's time here--he has a source, so who 
knows? But he says that the State Department did not--``It did 
not come out of this place,'' says a State Department source. 
``The likes of Prince Bandar do not need the State Department 
to get this done.'' Then he quotes Special Agent John 
Ianorelli, of the FBI, saying ``I can say unequivocally that 
the FBI had no role in facilitating these flights one way or 
the other.''
    Let me ask you, I guess, two questions. Are you confident, 
given your vast knowledge, that every person who was on--how 
many flights were there? The article is unclear.
    Mr. Clarke. I believe there was one.
    Senator Schumer. Just one that stopped in all these places, 
because he names four or five cities. ``The Saudi planes''--he 
says plural; he uses ``planes''--``took off or landed in Los 
Angeles, Washington, Houston, Cleveland, Orlando, Tampa, 
Lexington, Kentucky, and Newark and Boston.''
    How thoroughly were these people on this plane or these 
planes vetted?
    Mr. Clarke. Senator, all I can tell you is that I asked the 
FBI to do that. I asked the director and the assistant director 
to do that. They told me they did it. I think the key thing 
here is that no one on those aircraft manifests has ever been 
subsequently wanted by the FBI for an interrogation.
    So the notion which this author perhaps is trying to paint 
that people who were involved in 9/11 or in planning terrorism 
somehow were allowed to escape, I think, is wrong. No one on 
those flight manifests has ever been designated by the FBI as 
having been involved in 9/11.
    Senator Schumer. But let me ask you this question. This is 
just a summary, so I haven't read the article. It is what 
Vanity Fair puts out. My impression, or at least my assumption 
of why this was important was not necessarily that those 
connected with terrorism might have escaped, although who 
knows--but your word means a whole lot to me; I have such huge 
respect for you, and we knew each other even back in the 
Clinton days when we were talking about some of these issues--
but rather that many of them might have been able to shed some 
light, particularly in the time thereafter, about what 
happened, what went on, et cetera.
    Do you know if we have made any efforts to question any of 
these people subsequent to their being in Saudi Arabia, given 
something you have acknowledged and we have all acknowledged, 
the lack of complete Saudi cooperation when we wished to 
question some people there? Have we tried, have we been 
successful? Do you have any knowledge of that?
    Mr. Clarke. I do not know the answer to that, Senator. I 
would be guessing and I would rather not do that. But I would 
stress that, despite what the article may say, this decision 
was reviewed by the State Department and was reviewed by the 
FBI and signed off on by the FBI. All of the names on all of 
the flight manifests were checked before anyone was allowed to 
leave the country. And my specific question to the FBI was, if 
there is anybody you want to hold, hold them.
    Senator Schumer. And was anyone--sorry. I wouldn't mind if 
you have your question and I could just continue for four or 5 
minutes myself.
    Chairman Kyl. Yes. Here is what I would like to do and see 
if it is okay with you, Senator Schumer. Obviously, we are 
deviating in this line of questioning from what the hearing was 
all about.
    Senator Schumer. It just was so officious.
    Chairman Kyl. I understand, and I am fascinated by the 
pursuit of the issue as well, but Mr. Clarke wasn't advised 
beforehand that we were going to get into this.
    Senator Schumer. Right.
    Chairman Kyl. Here is what I would like to suggest. Since I 
have to get down to the White House and my car is leaving in 
just a second, I would like to just make a concluding comment 
and, with your permission, bring the hearing to a close, with 
the understanding that we will continue to converse with Mr. 
Clarke and, as events call for it--we are going to have a 
hearing a week from today, September 10, that is going to get 
back to the question of Saudi involvement and other related 
issues.
    Senator Schumer. That is just fine with me.
    Chairman Kyl. We have plenty of time to pursue this, but I 
think, under the circumstances, if it is all right with you, 
that is the way I would like to deal with it.
    Senator Schumer. Well, I read this two hours ago.
    Chairman Kyl. I have got it here and I think it is worth 
pursuing, but let's give Mr. Clarke a little more time just 
to----
    Senator Schumer. Would you be available tomorrow or the 
next day to talk about this?
    Mr. Clarke. Yes.
    Chairman Kyl. Let me, first of all, thank Senator Schumer. 
It has been a pleasure to work with him on these issues, and we 
do see eye to eye. We do have some more work to do and we will 
be having another interesting hearing a week from today on the 
morning of September 10.
    The one comment I would like to make, and Senator Rudman 
put his finger right on it, is obviously I would like to spend 
more money on defense, I would like to spend more money on lots 
of different things. We all would. Senator Schumer and I might 
well decide we would like to spend more money on homeland 
security.
    The only rational way to decide among all the competing 
interests is to have some kind of informed basis for 
evaluation, which is the great service that you have done for 
us to suggest that template for us to use, or the Department of 
Homeland Security primarily to use. And then the political 
decisions about how to allocate the money based upon that 
knowledge will be up to us as the political people and we will 
have to make our judgments one way or the other.
    I think that is one of the great services that you have 
performed in the report and in the conversation you have had. 
And, Dr. Posner, of course, this is right down your alley, as 
well.
    So I want to thank you all for your testimony. I have the 
feeling we are going to be doing some follow-up here. As we 
work on legislation, much like the House is doing, we are going 
to have to rely upon you for advice on how to put it together.
    So I think that is the way I would like to close this 
hearing, not to close the subject, but as kind of the second 
chapter. You wrote the first chapter, and then we will get to 
work on how to implement that and either call you back formally 
or informally, discuss with you and try to pursue it in that 
way. I just really appreciate all of the information that you 
have provided to us today. Thank you very much for being here.
    With that, the hearing will be closed.
    [Whereupon, 4:12 p.m., the Subcommittee was adjourned.]
    [Additional material is being retained in the Committee 
files.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
                                   <all>

</pre></body></html>
